   THE JOINT PROGRAM OFFICE’S
 MANAGEMENT OF THE INTELLIGENT
TRANSPORTATION SYSTEMS PROGRAM
     NEEDS TO BE IMPROVED
 Research and Innovative Technology Administration
           Report Number: AV-2009-040
            Date Issued: March 11, 2009
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: The Joint Program Office’s                     Date:   March 11, 2009
           Management of the Intelligent Transportation
           Systems Program Needs To Be Improved
           Research and Innovative Technology
           Administration
           Report Number AV-2009-040

  From:    Lou E. Dixon                                       Reply to    JA-10
                                                              Attn. of:
           Assistant Inspector General
            for Aviation and Special Audit Programs

    To:    Research and Innovative Technology
           Administrator
           Director, Intelligent Transportation Systems
           Joint Program Office

           In November 2007, the Administrator of the Research and Innovative Technology
           Administration (RITA) expressed concerns to our office about the Joint Program
           Office’s (JPO) management and oversight of the Intelligent Transportation
           Systems (ITS) program. In particular, he questioned the JPO’s ability to measure
           project results, manage program costs, and fulfill departmental goals.

           Within the Department of Transportation (DOT), the JPO is under the direction of
           RITA but is administratively supported by the Federal Highway Administration
           (FHWA). The JPO serves as the primary advocate for the ITS program and is
           responsible for general program and budgetary oversight. The purpose of the ITS
           program is to improve transportation safety, mobility, and productivity by
           investing Federal funds in research initiatives.

           Our audit objective was to assess whether the JPO is effectively managing and
           overseeing the ITS program by (a) tracking project results and outcomes,
           (b) managing the ITS budget and overseeing contracts, and (c) providing direction
           and cross-modal coordination. We conducted the audit from February 2008
           through December 2008 in accordance with generally accepted government
           auditing standards prescribed by the Comptroller General of the United States.
           Exhibit A details our audit scope and methodology.
                                                                                                                 2


BACKGROUND
Congress established the ITS program in 1991 and, at DOT’s recommendation, the
JPO in 1994. The JPO’s early mission was to provide DOT-wide research,
development, and operational testing of ITS systems. In 1998, Congress
earmarked over $900 million to deploy hundreds of ITS applications. 1 In support
of this effort, Congress directed the JPO to develop guidance for evaluating the
results of these deployments, collect safety and technical data, and make this
information available via an electronic clearinghouse.

In 2005, Congress provided the JPO with an annual budget of $110 million
through fiscal year 2009.2 In doing so, Congress directed the JPO to establish
research initiatives in the following areas: (1) traffic management, (2) incidents,
(3) transit, (4) freight, (5) road weather, (6) toll collection, (7) traveler
information, (8) development of highway operations systems, and (9) remote
sensing products. In 2006, the Secretary of Transportation added a 10th major
initiative to the JPO’s portfolio—the Urban Partnership Agreement program—a
$100 million, 3-year project using ITS technologies to relieve highway congestion
in 6 major cities.

With a staff of 17 authorized positions, the JPO relies on contractors to conduct
ITS research, and support contractors to assist in technical management, oversight,
and program assessment. 3 For instance, the JPO uses support contractors to
perform various administrative and oversight services, including evaluating
programmatic results, collecting performance data, and managing publicly
available ITS databases. Other contractors conduct project-specific activities,
including system planning, design, execution, and testing.

RESULTS IN BRIEF
Since its creation, the JPO has overseen the allocation and expenditure of more
than $3 billion for deploying ITS applications and researching new technologies.
This investment has led to widespread use of various ITS systems, such as
electronic tolling and centrally controlled traffic signals. During our review,
senior DOT officials commended the JPO’s new leadership and its efforts to
coordinate various ITS research initiatives across the Department since being
installed a year ago. Nevertheless, we identified three key areas for improvement
in the JPO’s management of the ITS research program. While the JPO recognizes

1
    Transportation Equity Act for the 21st Century (TEA-21), Pub. L. No. 105-178 (1998), provided funding for
    deploying over 700 ITS applications. In December 2007, Congress rescinded unused deployment funds for nearly
    200 of these applications.
2
    Safe, Accountable, Flexible, Efficient Transportation Equity Act - A Legacy for Users (SAFETEA-LU), Pub. L. No.
    109-59 (2005).
3
    Modal partners also assist in administering and overseeing ITS research and deployment projects. In some cases,
    daily oversight and project management are executed by modal administration staff in coordination with the JPO.
                                                                                   3


the need to address these areas and is taking corrective actions, much more
remains to be done.

First, the JPO needs to strengthen its assessment program for measuring ITS
project results and eliminate costly, duplicative support contractor services.
After Congress earmarked hundreds of ITS deployment projects in TEA-21 in
1998, the JPO established a project assessment program relying on the use of
support contractors. These contractors generated ITS project evaluations and
summaries for annual obligated costs averaging $7.4 million. However, we found
that the JPO had not provided adequate oversight of the assessment program. As a
result, support contractors were producing evaluations and project summaries that
were incomplete, costly, and outdated. These support contractors also provided
duplicative services, such as resubmitting products written by other contractors
and overseeing each other’s work.

In addition, the JPO has been slow to downsize the assessment program even
though the number of new ITS systems requiring evaluations has declined since
earmarked deployments were discontinued in SAFETEA-LU in 2005. After we
brought these issues to her attention, the JPO Director stated that she plans to
restructure support contracts in 2009 to streamline operations and eliminate
duplicative services. The JPO also recently hired a certified project management
professional to oversee the restructured assessment program. Such actions, if
properly implemented, should go far to improve oversight of the assessment
program and reduce duplicative services; however, additional work will be needed
to improve the quality of project evaluations and summaries.

Second, the JPO needs to strengthen its budget management process by
ensuring financial procedures and internal controls are fully documented and
implemented. The Office of Management and Budget (OMB) requires
documented budget execution and internal control procedures to increase
assurance that agency financial reports are reliable and operations are effective
and efficient. During our audit, however, we found several areas where the JPO
either had no procedures in place or had not documented them. For instance, the
JPO had not documented procedures for overseeing and managing various budget
activities. As a result, the JPO budget officer failed to conduct monthly financial
reconciliations (a basic control procedure) during a 5-month period.

In addition, the JPO lacked internal controls governing the allocation of year-end
funds, which have averaged nearly $24 million, or over one-fifth of the entire JPO
budget, for the last 5 fiscal years. Leaving large amounts of unallocated funds idle
rather than assigning them to specific projects increases the risk that they could be
improperly redirected or rescinded. Since we identified these issues, the new JPO
Director has hired a consultant to assist the budget manager in documenting
budget procedures and conducting financial reconciliations. The Director has also
                                                                                                                       4


implemented procedures for allocating year-end funds. While these procedures
are good steps, the JPO still needs to document them to ensure its staff adheres to
the new procedures instead of relying on previous practices.

We also found that the JPO lacks documented procedures for coordinating with
FHWA to annually identify and prioritize the closure of old contracts and
agreements with large remaining balances. Since 1999, DOT policy has
emphasized the need to annually review contracts and agreements to ensure
remaining funds were not left idle after projects were completed, canceled, or
reduced in scope. We sampled 120 old contracts and agreements 4 and identified
nearly $20 million that needs to be de-obligated and put to better use or returned to
the Treasury. This includes one project that was approved in June 2003, with
$1.78 million obligated, but canceled 3 months later. Although the JPO officials
advised us that they subsequently asked FHWA to de-obligate these funds, more
than 5 years later, the DOT accounting system showed the entire $1.78 million
was still obligated. The JPO, therefore, needs to coordinate with FHWA to
identify and review old ITS contacts and agreements and de-obligate nearly
$20 million in unneeded funds.

Third, the JPO needs to improve ITS project direction and coordination by
adopting uniform project management standards, conducting benefit-cost
analyses, and eliminating conflicts of interest among its contractors. These
steps would have reduced the risk of delays and cost overruns that have affected
several ITS initiatives. For instance, in 2004, the JPO began its largest research
program, Vehicle Infrastructure Integration (VII). 5 However, VII did not undergo
several steps that standardized project management would have required, such as
development of a project management plan. This plan would have required the
VII program to have a clearly defined scope, deliverables, funding requirements,
and milestones at project initiation. Instead, VII started with an unrealistically low
budget estimate of $49 million, which has risen to over $100 million. Moreover,
the program’s proof-of-concept phase 6 encountered a schedule delay of nearly
1 year and a cost overrun of $7.3 million. An early benefit-cost analysis would
have helped the JPO provide a more realistic cost estimate for VII as well as
determine the likelihood of a positive return on investment. The JPO is now
restructuring VII to better define deliverables and establish clear milestones and is
working with Volpe to identify anticipated benefits and costs.

We also found that the JPO needs to address conflicts of interest among its support
contractors. These conflicts raise questions about the support contractors’ abilities
to render impartial advice and services to the ITS program. For instance, Citizant
4
    These included interagency, cooperative, and grant agreements.
5
    The VII program is developing an advanced information infrastructure to be installed at intersections and in vehicles
    with the goal of improving safety and mobility by providing early warning to reduce vehicle crashes.
6
    “Proof of concept” establishes that an idea, invention, process, or business model is feasible.
                                                                                                                 5


provides technical support to Integrated Vehicle Based Safety Systems (IVBSS) 7
but is also involved in contract management and the JPO assessment program.
Similarly, a new JPO-funded project, Safe Trip-21, 8 is being both administered
and overseen by the Volpe Center. According to DOT Order 2300.8, Volpe
cannot oversee projects that it administers. This situation creates a conflict of
interest for Volpe and sets a troubling precedent because no other ITS research
project is exempted from JPO oversight.

After we began this audit, the JPO initiated several corrective actions. For
example, the JPO now requires monthly status reporting for all ITS projects. The
JPO is also establishing a Program Management Office (PMO) to develop and
enforce uniform standards for project management and contractor oversight.
While these are good steps, follow through will be needed to ensure past project
management weaknesses do not continue.

Our recommendations to the JPO include (1) strengthening the ITS assessment
program to effectively measure and report the results of ITS research (i.e.,
benefits, costs, and lessons learned); (2) restructuring support contractor services
to reduce costs and eliminate duplicative services; (3) documenting procedures to
ensure effective budget execution, contract closeout, and de-obligation of prior-
year funds; (4) coordinating with FHWA to de-obligate nearly $20 million in
unneeded funds on old contracts and agreements; and (5) strengthening project
management by requiring uniform procedures, performance data, and benefit-cost
analyses and eliminating conflicts of interest. We also recommend that the RITA
Administrator transfer oversight of the Safe Trip-21 project from Volpe to the
JPO to comply with DOT Order 2300.8.                 We are making a total of
10 recommendations, which are listed at page 19.

FINDINGS
While ITS initiatives have achieved DOT-wide support, we found weaknesses in
how the JPO measures project results, executes budget and contract procedures,
and manages ITS research. Specifically, the JPO has not ensured that ITS project
assessments—essential information for Congress and other decision makers—
have been useful, timely, or complete. Without adequate oversight, the JPO’s
assessment program contractors were also producing costly, duplicative work. In
addition, we found the JPO has historically operated without documented budget
procedures, which offers little assurance that ITS project funds are expended
effectively. As a result, ITS financial reports were not consistently reconciled in
2008, more than one-fifth of the JPO’s annual budget was left unallocated for the

7
    IVBSS is intended to demonstrate that vehicles equipped with warning sensors can help drivers avoid the most
    common types of deadly crashes.
8
    Safe Trip-21 is a demonstration project designed to prevent motor vehicle crashes by providing real-time safety
    warnings to drivers.
                                                                                                                        6


last 5 years, and nearly $20 million in unneeded funds was left on old contracts
and agreements. We also found that adopting uniform project management
standards and benefit cost analyses may have mitigated cost overruns and delays
experienced by several ITS initiatives.

To correct these issues, the JPO must restructure its assessment program,
document budget procedures, and ensure unneeded funds are identified and
de-obligated. In addition, the JPO must clearly define project management
standards to reduce the risk of delays and cost overruns and ensure its contractors
do not create conflicts of interest in the services they provide.

The JPO’s Assessment Program Is Not Effectively Measuring ITS
Project Results
In 1998, Congress expanded the JPO’s mission by funding hundreds of earmarked
ITS deployment projects. Congress also required the JPO to develop guidance for
evaluating the results of these deployments, collecting safety and technical data,
and making this information available via an electronic clearinghouse. In addition
to developing evaluation guidelines, the JPO established an extensive assessment
program using six support contractors 9 at an annual cost of approximately
$7.4 million. According to the JPO, the assessment program had to rely on
significant contractor support due to limited JPO staff resources (only 1 of 17 staff
positions was assigned to oversee the assessment program) and the large number
of required evaluations.

Under the assessment program, JPO support contractors produce evaluation
reports 10 and project summaries of ITS deployments and distribute the resulting
information on several contractor-operated websites or the National Transportation
Library. Evaluation reports document the results of ITS project testing, and
project summaries are synopses of the evaluation reports or other ITS-related
documents. 11 The JPO issued a procedures guide in 2001 for completing
evaluations. According to this guide, evaluations should address how ITS
technology has improved safety, mobility, efficiency, productivity, or energy and
the environment.

However, we found that support contractors’ evaluations typically did not measure
or report in compliance with the JPO guidelines. According to JPO officials, this
was due in part to the difficulty in measuring the effects of deployed ITS
technology and the many factors that can influence test results. Nevertheless, the

9
     With a staff of only 17 positions, the JPO came to rely on six support contractors (i.e., Battelle, Citizant, Noblis,
     Oak Ridge, SAIC, and Volpe) to carry out its assessment program.
10
     In addition to evaluations produced by its support contractors, the JPO also receives self-evaluations from the
     recipients of ITS deployment funds.
11
     Thirty-seven percent (196 of 529) of ITS projects have been evaluated since 1998. Of those projects evaluated, less
     than half (87 of 196) have reports stored in the National Transportation Library.
                                                                                   7


JPO needs to provide closer oversight of contractor evaluation efforts, reinforce its
own guidance to fulfill the congressional intent for the ITS program, and
restructure its assessment program to eliminate costly, duplicative contractor
services.

Assessment Program Support Contractors Are Not Producing Quality
Evaluations and Summaries
Many of the support contractors’ evaluation reports and project summaries were
too general or outdated to be useful or to justify the sizeable cost. Also, we found
that these work products did not clearly show how ITS technologies may have
improved safety, mobility, efficiency, productivity, or energy and the
environment. As the following examples show, the absence of measurable and
reportable results increases the burden on decision makers to determine which
projects merit continued funding and whether congressional goals for the ITS
program are being achieved.

 • Under the Metropolitan Model Deployment Initiative, the New York
   Metropolitan area received a Federal grant of $10.4 million to fund Trips 123,
   a web-based traveler information service. In 1998, a pre-deployment
   evaluation report criticized project management and highlighted breakdowns in
   communication between participants. However, when Trips 123 was finally
   deployed 7 years later in 2005, no final report was ever written. Without
   measurable and reportable results, any benefit from the $10.4 million invested
   remains unknown.

 • In June 2008, the JPO obligated $500,000 for contractors to develop 60 new
   project summaries. Over a 3-month period, the support contractor, Noblis,
   delivered only 26 summaries. These summaries were too brief and did not
   provide a sufficient level of detail to be of value. Further, the summaries were
   based on previously published reports or journal articles that were otherwise
   available and merely restated general information from the source; no unique
   analysis was included, and several summaries were redundant. In fact, 4 of the
   26 summaries were written from just one source document.

Because none of the summaries was based on new information and the quality was
poor, we asked the JPO to clarify its criteria for reviewing and accepting Noblis’s
work. Rather than respond to us, the JPO directed our questions to a second
support contractor, SAIC, who failed to provide evidence that the JPO possessed
any criteria for acceptance or had even reviewed the summaries in question.

We also questioned Noblis about its project summaries, specifically the numbers
of summaries produced in a performance period, and Noblis’s tracking of labor
hours associated with each summary. A Noblis official responded that its contract
                                                                                           8


is based on level of effort (i.e., billable hours) and that the JPO had not modified
the contract to specify a level of performance. We subsequently reviewed a
$200,000 modification to this contract and found the contractor’s claim to be
accurate. The contract modification did not add any new deliverables or increase
the scope of the contract’s work. Without specifying what additional work was
required, it is unclear what services or products the JPO received for the $200,000,
let alone whether these services or products were of any value.

Because of the large number of billable hours (i.e., 1,750) and the small number of
summaries, we also asked Noblis to show evidence that hours billed were in fact
spent working on those summaries. The contractor replied that it does not track
labor hours against the number of summaries produced. In our view, JPO
managers need to increase their oversight of products delivered by support
contractors.

Without requiring useful information from its contractors, the JPO cannot know
whether it has paid too much for project summaries. This type of situation is
precisely why the OMB warns that a labor hours contract is not appropriate when
it is possible to estimate the extent or duration of work. 12 Because the JPO can
and does estimate the number of summaries, funding requirements, and
completion timeframes, it has the ability to move to a performance-based contract
structure and should consider doing so.

JPO Assessment Program Support Contractors Are Engaged in
Duplicative Work
We found that the JPO’s assessment program support contractors provided
services that were frequently duplicative—services that the JPO continues to pay
for and should eliminate:

     • First, multiple support contractors are summarizing evaluation reports written
       by other support contractors. This is unnecessary because each evaluation
       report already includes an executive summary written by the team that
       performed the evaluation.

     • Second, ITS evaluations are stored in and made publicly available through
       DOT’s National Transportation Library; yet, two JPO support contractors have
       created and maintained multiple databases to store the same project
       summaries. To help reduce costs, the JPO could explore the feasibility of
       storing all ITS information in the National Transportation Library.

     • Third, multiple support contractors are reviewing the others’ evaluations and
       project summaries. Since JPO managers are also responsible for reviewing
12
     OMB Circular A-11 “Preparing, Submitting, and Executing the Budget,” June 26, 2008.
                                                                                   9


   their work, the support contractors’ reviews are unnecessary. For example,
   Volpe project summaries are submitted to Noblis for review before being
   reviewed again by the JPO.

Further, we found several instances of multiple summaries produced from the
same source documents. For example, SAIC evaluated a product called Advanced
Parking Management Systems developed by the private sector that identifies
empty parking spaces in garages. SAIC’s report includes an executive summary,
and the full report is available electronically through DOT’s National
Transportation Library. Nevertheless, Noblis summarized the SAIC report three
times, posting its summaries to two Noblis-maintained ITS websites. Volpe
produced four more summaries of the SAIC report, which were posted to a third
Noblis-maintained ITS website. Finally, Oak Ridge summarized the SAIC report
and posted it to an Oak Ridge-maintained ITS website. Since the full SAIC report
is available from DOT’s National Transportation Library, we found no compelling
reason for eight additional summaries or for the JPO’s continued support of
multiple contractor-operated ITS websites.

During our review, we raised concerns about the assessment program support
contractors’ difficulty in producing measurable and reportable results and their
duplicative services. JPO officials agreed with our concerns, noting that in
May 2008 they had tasked Volpe with determining the benefits of the $3 billion
invested in ITS research and deployments since 1991. JPO officials also noted
that they plan to restructure their support contracts as they begin expiring in 2009.
The JPO also recently hired a certified project management professional to
oversee the restructured assessment program.             Such actions, if properly
implemented, should go far to improve oversight of the assessment program and
reduce duplicative services; however, additional work will be needed to improve
the quality of project evaluations and summaries.

The JPO Lacks Documented Procedures for Managing Its Budget and
Ensuring Funds Are Not Left Idle on Old Contracts and Agreements
We found that the JPO needs to strengthen its budget management process in two
key areas: (1) documenting procedures for budget management and internal
controls and (2) identifying and prioritizing ITS contracts and agreements that
need to be closed and have unneeded funds that should be de-obligated. OMB
requires these budget management procedures to increase assurance that agency
financial reports are reliable and operations are effective and efficient. For
instance, when the previous JPO budget manager left in May 2008, the new
manager had significant difficulty with budget management and execution due to a
lack of documented procedures. As a result, the budget manager was unable to
reconcile monthly financial reports—a basic control procedure required by OMB.
                                                                                  10


We also found that for the past 5 years, the JPO ended each fiscal year with
significant amounts of unallocated funds. Yet, it had no documented internal
controls to govern how those funds would be allocated to specific project
accounts. Allocating year-end funds to specific accounts is necessary to reduce
the risk of improper redirection later or exposing the funds to potential rescission.
Additionally, DOT policy requires that old contracts and agreements be reviewed
annually. However, we found the JPO lacks procedures for consistently
identifying old ITS contracts and agreements that need to be closed out and have
funds requiring de-obligation. Based on our sample, we identified nearly
$20 million in unneeded funds remaining on old contracts and agreements.

The JPO Has Not Documented Procedures and Internal Controls To
Reconcile Expenditures and Ensure Year-End Funds Are Obligated
During our review of the JPO’s budget management, we identified several key
areas that would benefit from improved documentation and internal controls.

First, we found that the JPO did not conduct monthly financial system
reconciliations over a 5-month period. According to OMB, monthly financial
system reconciliation is a basic control procedure needed to ensure expenditures
and obligations do not exceed an agency’s budgetary authority and are accurate
and reliable. Since May 2008, when its budget manager left, the JPO had not done
reconciliations between Delphi and its Financial Management System.
Recognizing this shortcoming, the JPO recently hired an experienced consultant to
help train the new budget manager, develop a budget guide, and help reconcile
fiscal year 2008 accounts. One positive outcome to date has been the
identification of nearly $13 million in unallocated funds that can now be put to
better use on ITS projects. This situation demonstrates why documented control
procedures are necessary to prevent the waste, loss, or misuse of JPO research
funds.

Second, we found that the JPO has not documented its policies for governing
use of unobligated prior-year funds. Instead of allocating remaining year-end
funds, until recently, the JPO had been transferring the funds into a general
account (a “contingency” fund) where funds were held until obligated to JPO
projects. From fiscal years 2004 through 2008, this account averaged nearly
$24 million, or over one-fifth of the JPO annual budget (see table 1 on the next
page). Allocating year-end funds to specific accounts is necessary to reduce the
risk of the funds being improperly redirected or rescinded.
                                                                                                                    11


After we brought this issue to      Table 1. JPO “Contingency” Fund Balances
the JPO’s attention, the Director                FY 2004-FY 2008
began allocating unobligated                            Dollar
                                                                      Percent of
funds to specific ITS research       Fiscal Year                  Annual   Budget
                                                       Amount
                                                                    ($110 million)
projects. The Director has also
                                  September 2004     $20,987,373        19.1%
limited the contingency fund to
                                  September 2005      $9,349,057         8.5%
approximately 10 percent of the
JPO’s annual budget (i.e.,        September 2006     $28,892,418        26.3%
$10 million). According to the    September 2007     $25,938,421        23.6%
Director, the contingency fund    September 2008     $34,608,421        31.5%
is needed to cover unanticipated  5-Year Average     $23,955,138        21.8%
new projects or funding Source: ITS JPO Financial Management System
shortfalls. While these steps
represent improvements, the JPO still needs to ensure these procedural
improvements are documented and consistently applied in the future.

Third, we found that the JPO needs to improve its adherence to existing
internal controls and document them so that funds are not obligated and
expended without proper approval. The RITA Administrator requires multiple
RITA signatures, including his own, on purchase requests to commit JPO funds.
However, the JPO made a $200,000 obligation on May 2, 2008, to fund an
Assessment Program task order without getting approval from the RITA
Administrator or his designee. This was disconcerting because the Administrator
had previously disapproved a $475,000 request for this same Assessment Program
task order just 3 months earlier. 13

Upon further review, we found JPO managers had acquired the $200,000 for the
Assessment Program by authorizing an equal amount to be de-obligated from a
different JPO account. According to the JPO Director, the Administrator’s
disapproval did not apply to reallocating previously obligated funds.
Nevertheless, we believe that because the JPO was aware the Administrator had
disapproved additional spending on this particular task order, JPO managers
should have acquired RITA’s approval before transferring the $200,000. 14
Because the JPO budget manager was able to approve this purchase request
without written senior management approval, this situation demonstrates the need
for documented internal controls. The JPO Director stated that she now has a
policy requiring that all purchase requests either have her or her deputy’s
signature. However, as with the other examples discussed above, this policy is not
documented, and the JPO must do so to ensure the procedure is enforced.

13
     On January 31, 2008, the RITA Administrator disapproved a $475,000 request for this task order. Two weeks later,
     he approved only $300,000. The May 2, 2008, obligation of $200,000 increased the total for this task order to
     $500,000—more than the amount the Administrator originally disapproved.
14
     The JPO submitted a purchase request in October 2008 to obligate $200,000 to replace the funds transferred from the
     first JPO account.
                                                                                                                      12


The JPO and FHWA Are Not Ensuring the Timely De-Obligation of
Unneeded Funds on Old Contracts and Agreements
We found that the JPO lacked procedures for identifying and prioritizing old ITS
contracts and agreements that need to be closed by FHWA and have remaining
funds that should be de-obligated. As a result, we estimated that nearly
$20 million remains on idle projects that could be de-obligated and put to better
use or returned to the Treasury.

The JPO and FHWA need to conduct annual reviews to close old contracts
and agreements with large remaining balances. Since 1999, DOT policy has
emphasized the need to annually review contracts and agreements to ensure
remaining funds were not left idle after projects were completed, canceled, or
reduced in scope. 15 However, we found that neither the JPO nor FHWA were
ensuring this policy was fully implemented. For example, while the JPO has
requested that some old contracts and agreements be closed, FHWA has not
always been responsive due to a large backlog of old FHWA and ITS contracts
and agreements. As a result, significant amounts of funds remain on old contracts
and agreements. The JPO, therefore, needs to follow up to ensure that it and
FHWA consistently identify and prioritize for closure those old contracts and
agreements with large remaining balances.

The JPO needs to coordinate with FHWA to de-obligate nearly $20 million on
old ITS contracts and agreements. Without regular, annual reviews of contracts
and agreements, ITS funds are being left idle instead of being redirected to other
ITS priorities or, after exceeding the appropriation period, returned to the
Treasury. We reviewed a sample of 120 old ITS contracts and agreements (i.e.,
3 or more years) and found that 56 should be deemed inactive. 16 We analyzed the
56 inactive contracts and agreements and found that more than $11.7 million of
$46.8 million (or 25 percent) obligated was unneeded (see exhibit B for a list of
these contracts and agreements).

For example, one project was approved in June 2003 with $1.78 million obligated,
but it was quickly canceled in September 2003. Although JPO officials stated that
they subsequently asked FHWA to de-obligate these funds, more than 5 years
later, the DOT accounting system showed the entire $1.78 million was still
obligated. Moreover, because the contracts and agreements we analyzed were part
of a statistically valid sample selected from the entire universe of 447 active ITS
contracts and agreements, we can project that there is an additional $7.5 million in
unneeded funds. The JPO needs to work with FHWA to ensure the timely de-
obligation of all unneeded funds remaining on old contracts and agreements.

15
     DOT Policy Memorandum “Validation of Obligations,” December 28, 1999.
16
     Our sample was pulled from a universe of 447 active ITS contracts and agreements, some more than 10 years old.
                                                                                   13


In addition, we could not analyze six of the old contracts and agreements in our
sample because FHWA Acquisition staff could not find the files. According to
Delphi, these contracts and agreements are active and have a total of about
$734,600 still obligated (see exhibit C for a list of these contracts and agreements).

However, after a search in June 2008,
FHWA reported it was unable to find           Table 2. Estimated Funds Requiring
                                                          De-Obligation
the files. By December 2008, FHWA
                                                    Category              Amount
had still not located the files.
                                           OIG Verified                 $11.7 million
Without contract files, FHWA cannot        OIG Statistical Inference     $7.5 million
show that the obligations in Delphi        Miscellaneous                 $0.7 million
were still needed. Thus, the JPO also      TOTAL                        $19.9 million
needs to work with FHWA to de-             Source: OIG Analysis
obligate the $734,600 unless it can
find the missing files and verify the funds are still needed. Overall, we estimate
nearly $20 million is unneeded and should be de-obligated and put to better use or
returned to the Treasury (see table 2).

The JPO and FHWA need to validate $3.9 million in questionable
reimbursements. While analyzing old agreements, we learned the Federal
Transit Administration (FTA) drew down $3.9 million in obligated funds from
five old ITS agreements. For example, FTA made electronic draws on one
agreement totaling $581,406 in June 2008, even though the agreement file showed
this project was canceled 3 years earlier in May 2005. Because the timing of the
$3.9 million in draws coincided with our review of the old agreements, we asked
FTA to demonstrate that these draws were done in accordance with policy, rather
than from concern that our office would recommend the funds be de-obligated.
FTA officials responded that these draws were valid because they were
reimbursements for previously paid invoices. However, FTA did not provide
evidence that the invoices were associated with these five agreements or that the
work occurred within the performance periods of the agreements. In fact, one of
the agreements was canceled in 2005, the performance periods for the other four
expired between 2004 and 2006, and each agreement had been idle without
payment activity for 2 or more years.

If FTA considered these agreements active and expected to continue to draw
funds, the Agency had ample opportunity to extend the performance periods via
formal modifications during the years the agreements were idle. However, our
review of agreement files shows no indication that FTA attempted to extend the
performance periods before drawing the $3.9 million. Instead, on June 30, 2008,
FTA wrote to FHWA in an attempt to extend the performance periods after we
identified the agreements as idle.        Unless FTA can provide supporting
documentation that the $3.9 million is related to invoices showing work during the
                                                                                                           14


performance period and associated with the five agreements, FTA should return
these funds. Further, the JPO, as provider of the funds, and FHWA, as initiator of
the agreements, need to carefully review any documentation FTA provides. If the
documentation does not support the draws, FHWA needs to recover the
$3.9 million from FTA.

Until the JPO completes steps to document all budget procedures and internal
controls and increases its efforts to close contracts and agreements with large
remaining balances, decision makers will not have assurance that the JPO’s budget
is being effectively executed, financial reports are accurate, or that funds
remaining on old contracts and agreements are still needed.

The JPO’s Ability To Provide Effective Direction and Coordination of
ITS Activities Is Hampered by Management Weaknesses
The JPO’s ability to effectively direct and coordinate ITS projects has been
hampered by management weaknesses. Specifically, the JPO lacks uniform
project management standards that would prevent projects from being approved
without critical elements such as clearly defined statements of work, deliverables,
and plans. Further, by not requiring benefit-cost analyses (BCAs) before new
projects are approved, the JPO has either undertaken projects without determining
the likelihood of a positive return on investment or significantly underestimated
future costs. Additionally, the JPO has not provided sufficient oversight of its
support contractors to prevent potential conflicts of interest. To address these
weaknesses, the JPO needs to adopt uniform project management standards,
require benefit-cost analyses where feasible, and ensure its contractors do not
create conflicts of interest in the services they provide.

The JPO’s Effectiveness Is Hampered by a Lack of Uniform Project
Management and Tracking Procedures
The JPO lacks a comprehensive process for managing and tracking ITS research
initiatives. In 2004, we reported on similar project management weaknesses at the
Volpe Center, which is also part of RITA. 17 In response to our report, Volpe
adopted a uniform approach advocated by the Project Management Institute. This
guidance, which is published as the “Project Manager’s Body of Knowledge,” is
generally recognized as good project management practices. To improve project
management and tracking, the JPO needs to adopt a uniform project management
process, similar to the process implemented by Volpe.

The JPO’s largest research initiative, VII, is an example of a program that would
have benefited from a uniform project management process. This program was

17
     OIG Report Number SC-2004-100, “Volpe’s Project Management Oversight,” September 30, 2004. OIG reports are
     available on our website: www.oig.dot.gov.
                                                                                  15


initiated without undergoing several standardized project management steps,
including development of a project management plan. Such a plan would have
required the VII program to have a clearly defined scope, deliverables, funding
requirements, and milestones at project initiation. Instead, VII began with an
unrealistically low budget estimate of $49 million, which has risen to over
$100 million. Moreover, the program’s proof-of-concept phase encountered a
schedule delay of nearly 1 year and a cost overrun of $7.3 million. The significant
growth in program costs, plus recognition that VII’s deployment plan was not
realistically affordable, led to JPO’s recent decision to restructure the program.
According to JPO officials, the VII restructuring will lead to developing a clear set
of deliverables, an end date for research, and a realistic deployment plan. A
uniform project management approach would have required these steps much
earlier in the program.

The JPO could also benefit from requiring uniform performance reporting by its
contractors. For example, some JPO contractors provide quarterly performance
reports while others report their progress monthly.             Regular contractor
performance reporting is of critical importance to JPO managers because these
reports provide status and trend data on projects and deliverables; further, these
reports often are the deliverables that determine whether contractors should be
paid. If a contractor bills monthly but provides quarterly reports, the JPO manager
overseeing the project may not have all the information needed to make a good
determination about payment. For example, during our review, we noted that one
contractor’s invoices were paid in July and August of 2008, but the quarterly
progress report describing the work accomplished for these payments was not
delivered until October 2008. At the time of payment, the JPO reviewing official
had no indication of what was received in return.

About a year ago, the JPO—under new leadership—recognized that the current
project management process was neither systematic nor uniform. To strengthen
project management, the JPO established monthly project status tracking and
reporting in early 2008. Previously, JPO project managers were not required to
produce monthly status reports tracking cost, schedule, and performance data for
JPO managers or other decision makers. The JPO is also establishing a program
management office, or PMO. The PMO will help to standardize procedures,
project documentation, performance data, and contract management. Finally, the
JPO has hired a certified Project Management Professional and plans to certify
several other managers.

Overall, to address project management weaknesses, the JPO needs to continue its
progress toward increased uniformity, complete VII restructuring, and conclude
the PMO contractor selection process. While we support the PMO in concept, we
are concerned that the statement of work does not fully define staff roles and
                                                                                                                16


responsibilities. We are also concerned that the PMO contract will be based on
billable hours rather than performance. Because the JPO has not closely overseen
other support contractors paid on billable hours, we believe the JPO should clearly
define the duties, roles, and responsibilities of the PMO staff and use a
performance-based contract to ensure the PMO costs are identified at the outset.

The JPO Does Not Conduct Benefit-Cost Analyses Before Initiating New
ITS Research Projects
Currently, neither DOT nor the JPO require a benefit-cost analysis, or BCA,
before initiating a new ITS research project. However, OMB suggests using
BCAs at key project decision points, as well as including alternative approaches to
achieving project goals. 18 For example, a BCA could calculate the benefits and
costs of replacing versus repairing an old bridge or funding another alternative,
such as a tunnel. DOT’s Chief Economist also supports the use of BCAs to justify
investment in new projects (including ITS research) before senior decision makers
commit DOT funding to a project.

According to the JPO Director, because research projects tend to be less defined
than construction projects, it may prove more challenging to complete a BCA.
Nevertheless, it is important that such efforts be taken whenever feasible. Given
the sizeable DOT investment in ITS research, the JPO needs to conduct BCAs on
all major ITS research projects as early in the process as possible and at key
decision points. As noted by DOT’s Chief Economist, such information will allow
the JPO and senior DOT officials to make well-informed decisions on all future
ITS research investments.

Problems with the JPO’s largest research program, VII, demonstrate the
importance of conducting BCAs for all major ITS research initiatives before
investing significant resources. In 2005, the JPO commissioned the Volpe Center
to conduct a BCA of the VII program—which had been initiated 1 year earlier.
The decision to do a BCA was based on the realization that VII technology would
cost more than $1 billion per year to deploy. The JPO also needed to demonstrate
to senior decision makers and stakeholders that projected benefits would exceed
costs. After nearly 3 years, Volpe’s draft BCA projected more than $44 billion in
benefits (e.g., reduced travel time, accidents, and injuries) versus $30 billion in
estimated deployment costs. 19 Unfortunately, this information came some 4 years
after VII was approved, with a budget that is now more than $100 million.
Recognizing the significant funding challenges to VII, the JPO is working to
restructure the program.

18
     OMB Circular A-11 “Preparation, Submission and Execution of the Budget,” June 26, 2008.
19
     Volpe’s BCA for the VII program was titled: “Vehicle-Infrastructure Integration (VII) Initiative Benefit-Cost
     Analysis, April 2008. According to the JPO Director, this BCA underestimates the benefits and overestimated the
     costs for this program and is being reworked.
                                                                                                                       17


With the expiration of SAFETEA-LU and the resulting reauthorization in 2009,
the JPO will be proposing new research initiatives as well as updating its 5-year
ITS strategic plan. To assist decision makers and avoid costly mistakes, the JPO
should make BCAs mandatory at all key decision points for future high-dollar ITS
initiatives and particularly before committing significant DOT funds.

The JPO Has Not Ensured Its Support Contractors Are Free of Conflicts of
Interest
Because the JPO has only a small number of staff, it relies heavily on contractors
to provide a wide variety of technical and support services. 20 Government
agencies typically use support contractors to obtain special knowledge and skills
that may not be available through their existing Federal staff. In doing so,
however, agencies must adhere to OMB guidelines, which prohibit support
contractors from performing overlapping tasks that create conflicts of interest or
that could be considered inherently governmental activities. 21

During our review, we found that the JPO needs to address conflicts of interest
among its support contractors. 22 These conflicts raise questions about the support
contractors’ abilities to render impartial advice and services to the ITS program.
Since FY 2005, the JPO provided $83 million to its six main support contractors
for assessment, technical, and management support activities. Of this amount, the
JPO expended $22 million on program assessments. The amount of funding
involved provides little incentive for these contractors to identify problems or cost
savings in ITS projects while they are also benefitting by providing other technical
and management support. For example:

     • Noblis is involved in a variety of activities for which it provides both technical
       and management support for the VII and Cooperative Intersection Collision
       Avoidance System (CICAS) programs. However, Noblis is also involved in
       program assessment support, an activity that requires independence and
       objectivity. Examples of Noblis support services include preparing annual
       work plans, budgets, spending plans, and statements of work; evaluating
       contract proposals; monitoring contracts; and reviewing technical reports.

     • Citizant is also involved with the assessment program, even though it provides
       contract management services, oversees other contractors’ performance, and
       provides technical support to VII and IVBSS.

20
     The JPO is authorized 17 full-time equivalent staff. During our review, 3 positions were vacant.
21
     OMB Policy Letter 92-1 “Inherently Governmental Functions,” September 23, 1992. An “inherently governmental
     function” is one so intimately related to public interest as to mandate performance by Government employees.
22
     OMB Policy Letter 93-1 “Management Oversight of Service Contracting,” May 18, 1994. Under this policy, agency
     officials must ensure that any actual or potential conflicts of interest are identified and that appropriate steps are
     taken to avoid, neutralize, or mitigate them. Service contracts are not to be awarded to any individual or
     organization that is unable, or potentially unable, to render impartial advice or assistance to the Government.
                                                                                                                 18


     • Volpe is involved in the assessment program while also supporting VII and
       managing and overseeing Safe Trip-21. 23 Also, Volpe has a vested interest in
       the VII program (providing technical and management support); yet, Volpe
       conducted the BCA, which should be conducted by an independent party.

In each of these cases, the contractor is expected to simultaneously provide
objective and independent advice to the JPO while also receiving significant funds
for overseeing and managing various JPO projects and activities. To avoid
potential conflicts of interest, the JPO needs to ensure a clear separation of duties
among the various support contractors so that those contractors involved in project
assessment are not also involved in related ITS research activities. Moreover,
because the JPO is defining the roles, responsibilities, and duties of its new Project
Management Office contractor, it needs to ensure that it does not create additional
conflicts of interest.

Current Oversight of Safe Trip-21 Represents Both an Infringement of JPO
Responsibilities and a Conflict of Interest
In October 2007, the RITA Administrator became concerned about the JPO’s
project management weaknesses as well as the cost of VII. The Administrator
then directed the Volpe Center, not the JPO, to both manage and provide technical
oversight for Safe Trip-21, a new ITS demonstration project administered by
Volpe and funded by the JPO (i.e., $10 million). Safe Trip-21 is designed to
prevent motor vehicle crashes by providing real-time safety warnings to drivers.

This creates a troubling precedent because no other JPO-funded research project is
exempted from JPO oversight. Moreover, by directing Volpe to manage Safe
Trip-21 without JPO oversight, Volpe is overseeing itself, a violation of
DOT Order 2300.8. 24 According to this order, the customer is responsible for
activities such as (1) preparing statements of work, (2) defining desired outcomes,
(3) overseeing the project, and (4) reviewing deliverables. While JPO officials
told us that the RITA Administrator performed the above functions, we question
whether the Administrator or his staff had the time or specific technical knowledge
to adequately oversee Volpe’s performance on Safe Trip-21.

To address project management weaknesses overall, the JPO needs to adopt a
uniform approach to project management, require benefit-cost analyses for all new
high-dollar projects when feasible, and increase contractor oversight. In
particular, adopting uniform project management standards will make the JPO
more effective because it will increase discipline among its project managers. The
23
     Although Volpe is housed within RITA, we consider its operations and support to the JPO as being comparable to a
     contractor. Much like a contractor, Volpe is a fee-for-service organization, earning its revenue by performing
     various technical and support services for clients both within and outside DOT.
24
     DOT Order 2300.8. Financing Activities at the Department of Transportation/Research and Innovative Technology
     Administration’s Volpe National Transportation Systems Center, September 27, 2007.
                                                                                 19


RITA Administrator also needs to transfer oversight responsibility for the Safe
Trip-21 project to the JPO to avoid inherent conflicts of interest with Volpe’s
handling of this project and to comply with DOT Order 2300.8.

RECOMMENDATIONS
To improve the effectiveness of ITS program management, we recommend that
the JPO Director:

1. Strengthen the ITS assessment program and require that support contractors
   more effectively measure and report on the ITS research project results (i.e.,
   benefits, costs, and lessons learned).

2. Restructure assessment program support service contracts to reduce costs and
   eliminate duplicative activities.

3. Establish and document procedures for ensuring effective budget execution,
   contract and agreement closeout, and de-obligation of prior-year funds.

4. Coordinate with FHWA to identify and review old ITS contracts and
   agreements and de-obligate nearly $20 million in unneeded funds.

5. Coordinate with FHWA to review documentation supporting FTA’s
   questionable $3.9 million in reimbursements on five expired agreements and
   seek recovery of those funds that cannot be verified.

6. Strengthen project management by requiring uniform procedures,
   documentation, performance data, and timely benefit-cost analyses.

7. Ensure support contractor tasks are clearly defined and sufficiently separated to
   avoid any conflicts of interest.

8. Ensure the PMO’s duties, roles, and responsibilities as well as deliverables are
   clearly defined in the contract.

9. Use performance-based (versus billable hours) contracts for all future support
   services where it is possible to estimate the extent or the duration of the work.

We also recommend that the RITA Administrator:

10. Transfer oversight of the Safe Trip-21 project from Volpe to the JPO to avoid
    conflicts of interest and to comply with DOT Order 2300.8.
                                                                                  20


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided RITA and the JPO with our draft report on January 9, 2009. On
January 15, 2009, RITA provided us with its formal response to our
recommendations, which is included in its entirety in the appendix to this report.
In addition, the JPO provided several technical comments, which we have
addressed as appropriate in our final report.

RITA concurred with all 10 recommendations, and the JPO has begun corrective
actions. While most of these actions are responsive, we are requesting additional
information from the JPO to ensure all planned actions meet the intent of our
recommendations.

The JPO has begun addressing recommendations 1 through 6. Specifically:

 • To strengthen the ITS assessment program, the JPO has restructured the ITS
   organization and appointed a new team leader to oversee the program. To
   restructure support contractor services, the JPO is reviewing databases,
   support, and services associated with the assessment program to identify those
   that can be consolidated (recommendations 1 and 2).

   We request that the JPO clarify how the assessment program will now more
   effectively measure and report ITS research results. In addition, the JPO’s
   response stated that its contractors were not duplicating evaluations; however,
   this did not pertain to our finding, which focused on a separate product
   (contractors’ duplicative summaries of these project evaluations).

 • The JPO has begun documenting its financial processes and plans to complete
   this effort over the next several weeks. The JPO has not yet validated the
   $20 million dollars we identified but is working with FHWA’s Office of
   Acquisitions Management (HAAM) to close out old contracts and prioritize
   needed de-obligations. The JPO also verified that all five FTA reimbursements
   are old ITS JPO projects and will develop a process to address all charges in a
   timely manner. We consider these actions responsive to recommendations 3,
   4, and 5.

 • To implement uniform program management, the JPO is establishing a Project
   Management Office (PMO) for the entire research portfolio. The JPO has also
   hired a PMP-certified team leader for the Program Evaluation team. Finally,
   the JPO agreed to use benefit-cost analyses at appropriate points in the life of a
   research project. We consider these actions responsive to recommendation 6.
                                                                                 21


RITA and the JPO also cited planned actions to address recommendations 7
through 10:

 • To correct its contract practices, the JPO will strengthen existing conflict of
   interest clauses that already apply to some contractors. In addition, the JPO
   will consult with HAAM to better identify potential conflicts of interest among
   its contractors. The JPO will also serve as the approving authority for the new
   PMO contractors’ roles and responsibilities. We consider these actions
   responsive to recommendations 7 and 8.

      Furthermore, the JPO will consult with HAAM to pursue performance-based
      contracts where they apply to the specific contract type (recommendation 9).
      We request that the JPO clarify how it will use performance-based contracts,
      given OMB’s guidance that a labor hours contract is not appropriate when it is
      possible to estimate the extent or duration of work. Because the JPO can make
      such estimates for most projects, it has the ability to move to a largely
      performance-based contract structure and should consider doing so.

 • The JPO stated that it will begin the update of the interagency agreement with
   Volpe to transfer oversight of Safe Trip-21 to the JPO in January 2009. This
   action is responsive to recommendation 10.

ACTIONS REQUIRED
We consider the JPO’s corrective actions for recommendations 3, 4, 5, 6, 7, 8, and
10 to be responsive; however, these recommendations will remain open pending
completion of the actions. In accordance with DOT Order 8000.1C, we request a
more detailed response from the JPO regarding recommendations 1, 2, and 9. We
also request that the JPO provide target dates for completing all corrective actions
and notify us when they are complete.

We appreciate the cooperation of RITA and JPO representatives during this audit.
If you have any questions regarding this report, please contact me at (202)
366-0500, or Darren Murphy, Program Director, at (206) 220-6503.

                                          #

cc:      RITA Acting Administrator
         RITA Audit Liaison
         Chief, FHWA Acquisitions
         FHWA Audit Liaison
                                                                                                               22



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. We conducted the audit between February 2008
and December 2008 and included such tests of procedures and records as we
considered necessary, including those providing reasonable assurance of detecting
abuse and illegal acts.

During the audit, we met with numerous DOT and non-DOT officials involved in
the ITS program. Specifically, we interviewed key JPO officials, including the
current Director and her two predecessors, the Deputy Director, the current and
former Budget Managers, and various program and project managers. Within
RITA, we interviewed the Administrator, Associate Administrator in the Office of
Administration, Chief Counsel, and Chief Financial Officer. Within FHWA, we
interviewed the Chief Financial Officer, Chief of Contracts Division, Chief of
Acquisitions Division, and the Contracting Officer and Agreements Officers
responsible for various ITS contracts and agreements. Within OST, we
interviewed the Deputy Assistant Secretary for Transportation Policy, the Senior
Budget Examiner, and Chief Economist. We also interviewed various DOT
officials within FTA, the Maritime Administration, and the National Highway
Traffic Safety Administration (NHTSA). Finally, we interviewed the JPO’s six
main support contractors: Citizant, Battelle, Noblis, Oak Ridge National
Laboratory, Science Appliance International Corporation (SAIC), and the Volpe
Center. We also interviewed ITS America, Washington State DOT, and the
National Oceanic and Atmospheric Administration (NOAA). 25

To assess the JPO’s ability to track project results and outcomes, we reviewed
relevant laws, regulations, policies, and memoranda of understanding. We
reviewed the organizational structure of JPO’s assessment program and
interviewed key participants, including representatives from each of the six main
support contractors. We reviewed and analyzed documents from the National
Transportation Library, as well as project summaries and evaluation reports from
support contractor databases. We also gathered and analyzed numerous project-
and contract-related documents, contractor performance reports, and JPO monthly
status reports.


25
     Once completed, the JPO’s Clarus program will be transferred to the National Weather Service, an agency within
     NOAA.


Exhibit A. Scope and Methodology
                                                                               23


To assess the JPO’s ability to manage the ITS budget, we reviewed budget,
financial, and internal control policies. We analyzed financial documents from
Delphi and the JPO’s financial management system, funding memos, purchase
requests, invoices, and relevant supporting documentation. To verify the accuracy
of financial data, we compared and analyzed financial reports used to track
budgeted, obligated, and expended funds.

To assess the effectiveness of JPO’s contract oversight, we selected a statistical
sample of 120 active contracts and agreements more than 3 years old to determine
whether obligated funds were needed. From this sample, we identified and
analyzed 56 contracts and agreements that either had expired or showed no
payment activity for at least 3 years. From this list of the 56 contracts and
agreements, we reviewed relevant files and interviewed JPO, FHWA, and FTA
officials to verify what funds were no longer needed and required de-obligation.

To assess the JPO’s ability to provide direction and cross-modal coordination, we
compared congressional guidance and OMB’s planning criteria with the JPO’s
5-year strategic plan. We attended an ITS Strategic Planning Group meeting and a
cross-modal Urban Partnership Agreement coordination meeting and interviewed
relevant participants. To assess the importance of uniform project management,
we identified criteria from the Project Management Institute’s Project
Management Body of Knowledge and contacted the Volpe Center’s Program
Management Office. Lastly, we analyzed monthly status reports and other
performance documents from the JPO, FHWA, NHTSA, and Volpe, which
covered multiple ITS projects, including VII, Clarus, and Safe Trip-21.

To assess the importance of conducting benefit-cost analyses, we identified OMB
criteria, interviewed the DOT’s Chief Economist, and analyzed the benefit-cost
analysis for the VII program.

Finally, to determine whether JPO support contractors complied with OMB
policies covering inherently governmental activities and conflicts of interest, we
compared OMB criteria with contractors’ statements of work and progress reports.




Exhibit A. Scope and Methodology
                                                                      23


EXHIBIT B. CONTRACTS AND AGREEMENTS THAT NEED TO
BE CLOSED WITH ASSOCIATED FUNDS DE-OBLIGATED
               Contract or Agreement                 Remaining
   No.               Number            Year Signed   Obligations
     1          DTFH61-93-X-00017         1993           $28,034.22
     2          DTFH61-94-C-00207         1994           $54,711.00
     3          DTFH61-95-Y-00105         1995         $130,793.11
     4          DTFH61-95-Y-00105         1995         $125,000.00
     5          DTFH61-96-Y-30059         1996            $1,057.92
     6          DTFH61-96-C-00103         1996          $11, 604.47
     7          DTFH61-96-C-00047         1996           $10,000.00
     8          DTFH61-96-C-00094         1996           $23,848.74
     9          DTFH61-97-Y-30124         1997            $1,186.00
    10          DTFH61-98-C-00059         1998           $40,000.00
    11          DTFH61-98-C-00073         1998         $105,439.00
    12          DTFH61-98-C-00073         1998            $2,673.45
    13          DTFH61-98-C-00073         1998           $23,243.00
    14          DTFH61-98-C-00079         1998            $1,419.89
    15          DTFH61-99-T-56009         1999            $2,113.01
    16          DTFH61-99-X-00101         1999         $213,874.74
    17          DTFH61-99-Y-30078*        1999         $205,796.09
    18          DTFH61-99-X-00101         1999         $394,487.01
    19          DTFH61-00-Y-30124         2000         $110,000.00
    20          DTFH61-00-X-00006         2000           $93,437.00
    21          DTFH61-00-X-00006         2000           $61,113.00
    22          DTFH61-00-X-00006         2000           $52,994.00
    23          DTFH61-00-Y-30106*        2000         $537,708.88
    24          DTFH61-00-Y-30014         2000         $566,061.31
    25          DTFH61-C-01-00036         2001         $115,307.16
    26          DTFH61-01-C-00181         2001           $38,398.10
    27          DTFH61-01-T-56030         2001           $28,504.31
    28          DTFH61-01-D-00105         2001         $145,626.87
    29          DTFH61-01-Y-30120*        2001         $651,852.10
    30          DTFH61-01-C-00183         2001           $12,053.00
    31          DTFH61-01-C-00005         2001           $26,982.00
    32          DTFH61-01-T-56035         2001           $38,539.18
    33          DTFH61-01-Y-30120         2001         $275,000.00
    34          DTFH61-01-T-56036         2001            $8,929.00
    35          DTFH61-02-X-00104         2002         $266,696.23
    36          DTFH61-02-X-00011         2002           $86,339.17

(Table continues on page 24.)


Exhibit B. Contracts and Agreements That Need To Be Closed With
Associated Funds De-Obligated
                                                                                          24


                Contract or Agreement                                   Remaining
    No.               Number                     Year Signed            Obligations
    37            DTFH61-03-X-30112*                  2003                 $700,307.80
    38            DTFH61-03-X-30125                   2003                 $200,000.00
    39            DTFH61-03-X-30129                   2003               $1,779,928.00
    40            DTFH61-03-X-30108                   2003                 $150,000.00
    41            DTFH61-03-X-30103                   2003                 $500,000.00
    42            DTFH61-03-X-30124                   2003                 $443,000.00
    43            DTFH61-03-X-30128                   2003                 $700,000.00
    44            DTFH61-03-X-30127                   2003                 $250,000.00
    45            DTFH61-04-X-30063                   2004                 $147,360.00
    46            DTFH61-04-X-30044                   2004               $1,205,000.00
    47            DTFH61-04-T-86015                   2004                  $42,426.16
    48            DTFH61-05-D-00002                   2005                   $1,533.60
    49            DTFH61-05-D-00002                   2005                   $9,042.03
    50            DTFH61-05-D-00002                   2005                   $1,842.28
    51            DTFH61-05-D-00002                   2005                  $26,571.93
    52            DTFH61-05-D-00002                   2005                   $5,757.15
    53            DTFH61-05-D-00002                   2005                   $8,274.31
    54            DTFH61-05-X-30050*                  2005                 $352,672.47
    55            DTFH61-05-X-30025                   2005                 $465,065.00
    56            DTFH61-05-X-30048                   2005                 $250,000.00
                       Total:                                           $11,729,600.69

*   In addition to funds remaining on these five old agreements, we question FTA’s receipt of
    $3.9 million in reimbursements years after the period of performance for these agreements
    had expired.




Exhibit B. Contracts and Agreements That Need To Be Closed With
Associated Funds De-Obligated
                                                                       25


EXHIBIT C. SIX OLD CONTRACTS AND AGREEMENTS THAT
NEED TO BE CLOSED WITH FUNDS DE-OBLIGATED
            Agreement Number or                       Remaining
  No.            Recipient              Year Signed   Obligations
   1     DTFH61-01-SA-0010                2001            $99,632.00
   2     DTFH61-03-Y-30020                2003           $130,000.00
   3     DTFH61-03-SA-0388                2003           $250,000.00
   4     DTFH61-03-Y-00001                2003           $192,000.00
   5     DTFH61-04-T-56004                2004            $63,000.00
   6     National Academy of Sciences    Unknown               $8.19
         Total:                                          $734,640.19




Exhibit C. Six Old Contracts and Agreements That Need To Be
Closed With Funds De-Obligated
                                                  26


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


Name                         Title

Darren Murphy               Program Director

Charles Ward                Project Manager

Deborah Kloppenburg         Senior Auditor

Diane Brattain              Auditor

Gloria Echols               Auditor

Earl Kindley                Auditor

Teri Vogliardo              Analyst

Susan Zimmerman             Auditor

Petra Swartzlander          Senior Statistician

Andrea Nossaman             Writer-Editor




Exhibit D. Major Contributors to This Report
                                                                                              27


APPENDIX. AGENCY COMMENTS



U.S. Department                            The Administrator      1200 New Jersey Ave. S.E
                                                                  Washington, DC 20590
of Transportation
Research and
Innovative Technology
Administration

January 15, 2009

Lou E. Dixon
Assistant Inspector General for Aviation
and Special Program Audits
1200 New Jersey Ave, SE
Room W76-481
Washington, D.C. 20590

Dear Ms. Dixon,

On behalf of the Research and Innovative Technology Administration (RITA), I would
like to thank the Office of the Inspector General (OIG) for executing the baseline audit of
the Intelligent Transportation Systems (ITS) Joint Program Office (JPO) and for
delivering the Draft Report. In short, RITA strongly concurs with the OIG
recommendations. Due to the diligence, hard work, and professionalism of the OIG staff,
as well as the changes that have already been implemented within the ITS JPO, we feel
confident that the ITS JPO is well-positioned to continue efforts to strengthen overall
management practices and implement these OIG recommendations.

Last December, the ITS Program was directed to begin the adoption of rigorous and
disciplined project management principles, restructure the Vehicle Infrastructure
Initiative (VII) initiative, develop a focused safety research agenda, and restructure the
organization to be better aligned to achieve these objectives. I am pleased to report that
these efforts have paid dividends. For example, the ITS JPO has reorganized its entire
office structure, hired new PMP-certified staff, implemented a Project Management
Office (PMO) with a contract award imminent, and restructured and rebranded the VII
initiative - now known as IntelliDrive. As well, the ITS JPO has developed a central
focus on safety to achieve measurable improvements in safety for the general public.

The efforts of the OIG staff will be critical to the continued efforts of the ITS JPO over
the next year in making needed improvements to meet their important mission. Among
one of my last actions as RITA Administrator, the ITS Program has been directed to
immediately begin the implementation of all the OIG recommendations.

Regards,



Paul R. Brubaker
Appendix. Agency Comments
                                                                                            28


RITA Response to the Office of Inspector General Audit Draft Report dated
                                 January 9, 2009

This document reflects the Intelligent Transportation Systems (ITS) Joint Program Office
(JPO) response to the Draft Report prepared by the Office of Inspector General (IG).

Executive Summary Response:

In general, the ITS JPO strongly concurs with the overall IG recommendations. The ITS
JPO fully supports the adoption of nationally-recognized project management best
practices, documenting internal procedures, restructuring the program assessment area,
closing out old contracts, and eliminating potential conflicts of interest, to name but a few
recommendations. The ITS JPO feels that implementing these recommendations will
yield substantial benefits to the ITS program and will improve overall research results.
The ITS JPO would like to recognize and thank the IG staff for their dedication and hard
work in completing their audit. The IG staff spent considerable time on a complex
program that has spanned 17 years across three authorizing legislations, with numerous
contract vehicles and projects. Due to the scope and diversity of the program, the IG staff
was faced with an extremely large workload. They worked diligently to conduct
numerous interviews, research vast amounts of data, and spent long hours to complete
this report in a compressed timeframe.

As noted in the IG report, the ITS JPO has already begun to implement several
improvements to correct a number of the issues identified in the report. Going forward,
the ITS JPO will also work with the other DOT offices identified in the report to address
the multi-modal financial and contractual issues. The ITS JPO looks forward to
continuing efforts to address the areas for improvement highlighted in the IG report.

Listed below are the specific responses to each of the individual IG recommendations
presented on page 19 of the report, along with a brief description of the planned actions
to implement the recommendations. Additionally, to assist with the accuracy and
thoroughness of this report, all technical corrections and clarifying information are
contained in Addendum A.

IG Recommendations Response:

The ITS JPO has the following response to the IG recommendations:

Recommendation 1: Strengthen the ITS assessment program and require that
support contractors more effectively measure and report on the results (i.e.,
benefits, costs, and lessons learned) of ITS research.

ITS JPO Response: Concur with comment: The ITS JPO concurs that the assessment
program can be strengthened. Since the ITS Deployment program has been rescinded,
the earmarked deployment projects will begin to come to an end during the next few
years. Evaluation plans are already in place for the ITS Management Council-approved



Appendix. Agency Comments
                                                                                         29

major research initiatives. Also, due to technology evolution, industry trends, new
national needs, and emerging issues, it is an appropriate time to reassess what data is
needed to provide the most essential and relevant information to decision makers and
stakeholders. Also, the JPO has restructured the entire ITS organization, and a new team
leader has been selected to oversee the Program Assessment area.

Comment: The ITS JPO wishes to clarify our belief that the assessment program has met
and exceeded the legislative requirements for evaluation and for an information
clearinghouse. The ITS JPO was responsible for overseeing hundreds of projects from
the earmarked ITS Deployment Program alone. The scale of work was large and federal
staff was small (one full time employee). Therefore, the JPO program manager, in
coordination with modal partners, developed a robust and well documented independent
verification and validation (IV&V) structure of oversight by federal personnel supported
by the services of contractors who were directed by Federal task managers. Because of
the projects were earmarked, the ITS JPO had no influence or control over the projects,
and was largely dependent on data from the earmark recipient. Thus, the assessment
program attempted, to the extent practicable, to mine the most useful and relevant data
possible under these circumstances and share this information with the deployment
community.

Recommendation 2: Restructure assessment support service contracts to reduce
costs and eliminate duplicative services.

ITS JPO Response: Concur with comment: The ITS JPO concurs that the assessment
program should be restructured to reduce costs. Since the ITS deployment program has
ended, there is no longer a need for as extensive contractor roles as was the case in the
previous years. The ITS JPO has begun to reassess the entire Program Assessment web
environment to consolidate databases, support, and services. An independent contractor
will be hired to conduct a thorough review of all web content. The draft SOW for this
assessment has been developed and shared with the other affected USDOT offices. The
ITS JPO anticipates contract award shortly and look forward to systematically
consolidating the program assessment based on the results of the independent contract
tasking.

Comment: The ITS JPO would like to note that the assessment program support
contractors were not duplicating evaluations. Rather, they were tasked to read evaluation
reports (some more than 100 pages long) sent in from ITS earmarked deployment project
recipients; find and extract relevant benefits, costs, and lessons learned; summarize them;
and post them into a relational database. This database fulfills the legislative requirement
for an information clearinghouse. These searchable databases are not duplicative of the
National Transportation Library, but rather they house short summaries for use by
deployment agencies.

Recommendation 3: Establish and document procedures for ensuring effective
budget execution, contract and agreement closeout, and de-obligation of prior year
funds.



Appendix. Agency Comments
                                                                                          30



ITS JPO Response: Concur in part: The JPO strongly concurs that existing financial
and contracting processes should be well documented. Work is underway to document
the existing financial processes. The ITS JPO will continue these efforts over the next
several weeks to complete this activity.

However, the ITS JPO is concerned about the statements that financial procedures are not
in place and that internal controls are lacking. The ITS JPO has long-standing financial
procedures; however, they lack documentation. This lack of documentation resulted in a
five month lapse in reconciliations when the JPO financial manager left and before the
new financial manager was hired and trained. Contract and agreement closeout is
addressed in the response to Recommendation #4 below.

Recommendation 4: Coordinate with FHWA to identify and review old ITS
contracts and agreements and de-obligate nearly $20 million in unneeded funds.

ITS JPO Response: Concur: Whereas the ITS JPO has not had an opportunity to
validate the $20 million dollars identified in the draft report at this time, we do concur
that old contracts must be closed out and remaining funds deobligated in a timely
fashion. The ITS JPO has and will continue to work with the FHWA Office of
Acquisitions Management (HAAM) to execute the closeouts of old contracts. The ITS
JPO will consult with HAAM to attempt to prioritize the needed deobligations and to
ensure the execution of the current fiscal year ITS procurement actions are not adversely
impacted.

Recommendation 5: Coordinate with FHWA to review documentation supporting
FTA’s questionable $3.9 million in reimbursements on 5 expired agreements and
seek recovery of those funds that can not be verified.

ITS JPO Response: Concur. The ITS JPO has verified that all 5 reimbursements are, in
fact, old ITS JPO projects. The ITS JPO intends to consult with HAAM and the FTA
Acquisitions Office to propose a process to ensure all charges for reimbursable
agreements are completed in a timely manner to avoid this issue in the future.

Recommendation 6: Strengthen project management by requiring uniform
procedures, documentation, performance data, and timely cost-benefit analyses.

ITS JPO Response: Concur: The ITS JPO strongly concurs that the JPO can do more to
strengthen project management processes. As noted in the report, several actions have
been completed to address this issue. The ITS JPO has hired a PMP-certified team leader
for the Program Evaluation team. Additionally, the JPO is actively establishing a Project
Management Office (PMO) for the entire research portfolio. The contract evaluation
process is completed, and the ITS JPO expects award of the PMO contract to occur
imminently. We strongly concur in the appropriate use of cost-benefit analyses at
appropriate points in the life of a research project when data is available. We note that, in




Appendix. Agency Comments
                                                                                              31

many cases, cost-benefit data does not exist at the start of research. Indeed, cost-benefit
data is often an output of the research.

Recommendation 7: Ensure support contractor tasks are clearly defined and
sufficiently separated to avoid any conflict of interests.

ITS JPO Response: Concur: The ITS JPO strongly concurs that support contractors on
a specific ITS research initiative should not be in a position to also monitor the evaluation
of the same initiative. Clauses are and have been in effect for some JPO support
contractors, but the arrangement deserves to be revisited and strengthened. The ITS JPO
will consult with HAAM to better identify potential conflicts of interest from a
programmatic and acquisition perspective to avoid this issue in the future.

Recommendation 8: Ensure the PMO’s duties, roles, and responsibilities as well as
deliverables are clearly defined in the contract.

ITS JPO Response: Concur: The ITS JPO believes the list of deliverables and due dates
in the PMO SOW meet this recommendation. Further, the first deliverable of the PMO
contract is the PMO Program Plan which defines the specific roles and responsibilities of
the PMO contractors. The PMO Program Plan first draft is due 30 days from contract
award. The final draft is due 45 days from contract award. The ITS JPO is the final
approving authority for this deliverable.

Recommendation 9: Use performance-based (versus billable hours) contracts for all
future support services where it is possible to estimate the extent or the duration of
the work.

ITS JPO Response: Concur: The ITS JPO agrees that performance-based contracting
offers clear benefits, where applicable. Going forward, the ITS JPO will consult with
HAAM to pursue performance-based contracts where they are applicable to the specific
contract type.

Recommendation 10: Transfer oversight of SafeTrip-21 from Volpe to the JPO to
comply with DOT Order 2300:8.

ITS JPO Response: Concur: The ITS JPO believes this is the consistent interpretation
of DOT Order 2300.8. The ITS JPO will begin the update of the interagency agreement
with Volpe to transfer oversight to the JPO in January of 2009.




Appendix. Agency Comments
The following pages contain textual versions of the graphs and charts included in
this document. These pages were not in the original document but have been
added here to accommodate assistive technology.
 The Joint Program Office’s Management of the Intelligent Transportation
                Systems Program Needs To Be Improved

                     Section 508 Compliant Presentation


Table 1. Joint Program Office “Contingency” Fund Balances, Fiscal Year
2004 through Fiscal Year 2008

 • In September 2004, the contingency fund balance was $20,987,373, or
   19.1 percent of the Joint Program Office’s annual budget of $110 million.

 • In September 2005, the contingency fund balance was $$9,349,057, or
   8.5 percent of the Joint Program Office’s annual budget of $110 million.

 • In September 2006, the contingency fund balance was $28,892,418, or
   26.3 percent of the Joint Program Office’s annual budget of $110 million.

 • In September 2007, the contingency fund balance was $25,938,421, or
   23.6 percent of the Joint Program Office’s annual budget of $110 million.

 • In September 2008, the contingency fund balance was $34,608,421, or
   21.8percent of the Joint Program Office’s

 • The 5-year average balance of the contingency fund was $23,955,138, or
   21.9 percent of the Joint Program Office’s annual budget of $110 million.

Source: ITS JPO Financial Management System

Exhibit B. Contracts and Agreements That Need To Be Closed With
Associated Funds De-Obligated
 Contract or Agreement Number:         Year Signed:      Remaining
 DTFH61-93-X-00017                     1993              Obligations
                                                         Totaled $28,034.22
 Contract or Agreement Number:         Year Signed:      Remaining
 DTFH61-94-C-00207                     1994              Obligations
                                                         Totaled $54,711.00
 Contract or Agreement Number:         Year Signed:      Remaining
 DTFH61-95-Y-00105                     1995              Obligations
                                                         Totaled
                                                         $130,793.11
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-95-Y-00105               1995           Obligations
                                               Totaled
                                               $125,000.00
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-96-Y-30059               1996           Obligations
                                               Totaled $1,057.92
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-96-C-00103               1996           Obligations
                                               Totaled $11,604.47
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-96-C-00047               1996           Obligations
                                               Totaled $10,000.00
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-96-C-00094               1996           Obligations
                                               Totaled $23,848.74
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-97-Y-30124               1997           Obligations
                                               Totaled $1,186.00
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-98-C-00059               1998           Obligations
                                               Totaled $40,000.00
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-98-C-00073               1998           Obligations
                                               Totaled
                                               $105,439.00
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-98-C-00073               1998           Obligations
                                               Totaled $2,673.45
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-98-C-00073               1998           Obligations
                                               Totaled $23,243.00
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-98-C-00079               1998           Obligations
                                               Totaled $1,419.89
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-99-T-56009               1999           Obligations
                                               Totaled $2,113.01
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-99-X-00101               1999           Obligations
                                               Totaled
                                               $213,874.74
(Old Federal Transit Administration   Year Signed:   Remaining
Agreement) Contract or Agreement      1999           Obligations
Number: DTFH61-99-Y-30078                            Totaled
                                                     $205,796.09
Contract or Agreement Number:         Year Signed:   Remaining
DTFH61-99-X-00101                     1999           Obligations
                                                     Totaled
                                                     $394,487.01
Contract or Agreement Number:         Year Signed:   Remaining
DTFH61-00-Y-30124                     2000           Obligations
                                                     Totaled
                                                     $110,000.00
Contract or Agreement Number:         Year Signed:   Remaining
DTFH61-00-X-00006                     2000           Obligations
                                                     Totaled $93,437.00
Contract or Agreement Number:         Year Signed:   Remaining
DTFH61-00-X-00006                     2000           Obligations
                                                     Totaled $61,113.00
Contract or Agreement Number:         Year Signed:   Remaining
DTFH61-00-X-00006                     2000           Obligations
                                                     Totaled $52,994.00
(Old Federal Transit Administration   Year Signed:   Remaining
Agreement) Contract or Agreement      2000           Obligations
Number: DTFH61-00-Y-30106                            Totaled
                                                     $537,708.88
Contract or Agreement Number:         Year Signed:   Remaining
DTFH61-00-Y-30014                     2000           Obligations
                                                     Totaled
                                                     $566,061.31
Contract or Agreement Number:         Year Signed:   Remaining
DTFH61-C-01-00036                     2001           Obligations
                                                     Totaled
                                                     $115,307.16
Contract or Agreement Number:         Year Signed:   Remaining
DTFH61-01-C-00181                     2001           Obligations
                                                     Totaled $38,398.10
Contract or Agreement Number:         Year Signed:   Remaining
DTFH61-01-T-56030                     2001           Obligations
                                                     Totaled $28,504.31
Contract or Agreement Number:         Year Signed:   Remaining
DTFH61-01-D-00105                     2001           Obligations
                                                     Totaled
                                                     $145,626.87
(Old Federal Transit Administration   Year Signed:   Remaining
Agreement) Contract or Agreement      2001           Obligations
Number: DTFH61-01-Y-30120                            Totaled
                                                     $651,852.10
Contract or Agreement Number:         Year Signed:   Remaining
DTFH61-01-C-00183                     2001           Obligations
                                                     Totaled $12,053.00
Contract or Agreement Number:         Year Signed:   Remaining
DTFH61-01-C-00005                     2001           Obligations
                                                     Totaled $26,982.00
Contract or Agreement Number:         Year Signed:   Remaining
DTFH61-01-T-56035                     2001           Obligations
                                                     Totaled $38,539.18
Contract or Agreement Number:         Year Signed:   Remaining
DTFH61-01-Y-30120                     2001           Obligations
                                                     Totaled
                                                     $275,000.00
Contract or Agreement Number:         Year Signed:   Remaining
DTFH61-01-T-56036                     2001           Obligations
                                                     Totaled $8,929.00
Contract or Agreement Number:         Year Signed:   Remaining
DTFH61-02-X-00104                     2002           Obligations
                                                     Totaled
                                                     $266,696.23
Contract or Agreement Number:         Year Signed:   Remaining
DTFH61-02-X-00011                     2002           Obligations
                                                     Totaled $86,339.17
(Old Federal Transit Administration   Year Signed:   Remaining
Agreement) Contract or Agreement      2003           Obligations
Number: DTFH61-03-X-30112                            Totaled
                                                     $700,307.80
Contract or Agreement Number:         Year Signed:   Remaining
DTFH61-03-X-30125                     2003           Obligations
                                                     Totaled
                                                     $200,000.00
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-03-X-30129               2003           Obligations
                                               Totaled
                                               $1,779,928.00
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-03-X-30108               2003           Obligations
                                               Totaled
                                               $150,000.00
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-03-X-30103               2003           Obligations
                                               Totaled
                                               $500,000.00
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-03-X-30124               2003           Obligations
                                               Totaled
                                               $443,000.00
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-03-X-30128               2003           Obligations
                                               Totaled
                                               $700,000.00
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-03-X-30127               2003           Obligations
                                               Totaled
                                               $250,000.00
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-04-X-30063               2004           Obligations
                                               Totaled
                                               $147,360.00
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-04-X-30044               2004           Obligations
                                               Totaled
                                               $1,205,000.00
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-04-T-86015               2004           Obligations
                                               Totaled $42,426.16
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-05-D-00002               2005           Obligations
                                               Totaled $1,533.60
Contract or Agreement Number:   Year Signed:   Remaining
DTFH61-05-D-00002               2005           Obligations
                                               Totaled $9,042.03
 Contract or Agreement Number:               Year Signed:        Remaining
 DTFH61-05-D-00002                           2005                Obligations
                                                                 Totaled $1,842.28
 Contract or Agreement Number:               Year Signed:        Remaining
 DTFH61-05-D-00002                           2005                Obligations
                                                                 Totaled $26,571.93
 Contract or Agreement Number:               Year Signed:        Remaining
 DTFH61-05-D-00002                           2005                Obligations
                                                                 Totaled $5,757.15
 Contract or Agreement Number:               Year Signed:        Remaining
 DTFH61-05-D-00002                           2005                Obligations
                                                                 Totaled $8,274.31
 (Old Federal Transit Administration         Year Signed:        Remaining
 Agreement) Contract or Agreement            2005                Obligations
 Number: DTFH61-05-X-30050                                       Totaled
                                                                 $352,672.47
 Contract or Agreement Number:               Year Signed:        Remaining
 DTFH61-05-X-30025                           2005                Obligations
                                                                 Totaled
                                                                 $465,065.00
 Contract or Agreement Number:               Year Signed:        Remaining
 DTFH61-05-X-30048                           2005                Obligations
                                                                 Totaled
                                                                 $250,000.00

TOTAL REMAINING OBLIGATIONS FOR ALL OF THESE
CONTRACTS OR AGREEMENTS: $11,729,600.69.

Note: In addition to funds remaining on the five old Federal Transit
Administration agreements, we question the Federal Transit Administration’s
receipt of $3.9 million in reimbursements years after the period of performance for
these agreements had expired.

Exhibit C. Six Old Contracts and Agreements That Need To Be Closed With
Funds De-Obligated
                                       Year          Remaining
 Agreement Number or Recipient:        Signed: 2001 Obligations Totaled
 DTFH61-01-SA-0010                                   $99,632.00
                                       Year          Remaining
                                       Signed: 2003 Obligations Totaled
 Agreement Number or Recipient:                      $130,000.00
 DTFH61-03-Y-30020
                                Year         Remaining
Agreement Number or Recipient:  Signed: 2003 Obligations Totaled
DTFH61-03-SA-0388                            $250,000.00
                                Year         Remaining
 Agreement Number or Recipient: Signed: 2003 Obligations Totaled
 DTFH61-03-Y-00001                           $192,000.00
                                Year         Remaining
 Agreement Number or Recipient: Signed: 2004 Obligations Totaled
 DTFH61-04-T-56004                           $63,000.00
                                Year         Remaining
 Agreement Number or Recipient: Signed:      Obligations Totaled
 National Academy of Sciences   Unknown      $8.19
TOTAL REMAINING OBLIGATIONS FOR ALL OF THESE
CONTRACTS OR RECIPIENTS: $734,640.19
